-
    U.S. AGENCY   FOR

    INTERNATIONAL
     D EVELOPMENT




                                                                                            February 26, 1999
                  MEMORANDUM

                  TO ..         AA/PPC, Thomas H. Fox
                                AA/M, Terrence J. Brown
              -. -
                FROM:           A-AIG/A, Paul E. Armstro

                  SUBJECT:      Audit of USAID-Funded Activities in Nonpresence Countries (Audit No. 9
                                000-99-005-P)

                  This is our report on the subject audit. The audit was designed to determine whether USAID
                  was able to identify and report on its activities in nonpresence countries.

                  The report contains two recommendations for your action. In your response to the draft, you
                  stated that you would discuss the time frame for accomplishing any reforms, relating to the
                  recommendations, as you make the necessary management decisions. When you have
                  decided on the corrective actions to address the audit recommendations, please provide them
                  to us and include the anticipated dates for achieving such actions. Since a management
                  decision has not been made on the two recommendations, we would appreciate a response
                  within 30 days of the issuance of this report (March 29, 1999). Your response to our draft
                  report is included in its entirety as Appendix II.

                  I appreciate the continuing cooperation and courtesies extended to my staff.


                  Background
                  USAID’s traditional management model is an in-country mission, with resident U.S. and
                  foreign national employees and personal services contractors filling a variety of program and
                  administrative positions. However, USAID is increasingly funding new or continuing
                  activities in countries where it does not maintain resident U.S. direct hire
                  employees-nonpresence countries. For example, of the 21 missions announced by the
                  Administrator for closure in 1993, USAID still has activities in all 21 of them. Activities in
                  these countries are managed by resident contractor staff, USAID personnel in nearby missions
                  and/or one or more of USAID’s Washington bureaus. Our 1997 survey showed that.
typically, two to four offices or bureaus managed activities in any given nonpresence country.
Our recent work showed three Washington bureaus and two overseas regional offices with
activities in Costa Rica and three Washington bureaus and one overseas regional office with
activities in Burkina Faso.

Activities in nonpresence countries support a variety of developmental, humanitarian, and/or
foreign policy objectives. These activities were either initiated by USAID, or, particularly
in the case of activities supporting foreign policy objectives, specifically mandated by
legislation or the Department of State. A large, but unknown, percentage of activities are       4




financed by food aid and disaster assistance appropriations and economic support funds.
Some examples of nonpresence country programming include:

0
    cash transfers to Israel;
0
    scientific research support for Israel;
0   food aid to nongovernmental organizations in Iraq, North Korea, and Burkina Faso;
0
    population program&in Turkey;
0
    democracy programs in Algeria, Oman, and Swaziland;
0
    labor union support in Cape Verde, Cameroon, and Mauritius;
0
    American Schools and Hospitals Abroad programs in Israel and Greece;
0
    regional environmental programs in Costa Rica;
0
    grants to subsidize private voluntary organizations’ ocean freight expenses when they ship
    privately donated commodities to countries such as Sierra Leone, Fiji, and Vietnam; and
0
    scores of small grants made by U.S. Ambassadors following natural disasters in their host
    countries.

Although the above illustrate some examples of nonpresence country activities, it is difficult
to estimate the magnitude or scope of nonpresence country programming. First, the number         4
of nonpresence countries fluctuates in response to political, financial, humanitarian, and/or
development concerns. Second, USAID managers have been confused about the definition
of nonpresence country programming and, as a result, respond to requests for performance
and financial information on their nonpresence country activities with incomplete and/or
incomparable data.


      .
Audit Objective
Our audit was designed to answer the following question:

    Is USAID able to identify and report on its activities in nonpresence countries?

Appendix I contains a complete discussion of the scope and methodology for this audit.
    Is USAID Able to Identify and Report on its Activities in Nonpresence
    Countries?
    USAID officials readily acknowledge that, although individual USAID staff members may
    be aware of the details of individual activities in nonpresence countries, the Agency is
    generally unable, quickly or accurately, to identify the location, cost, or other basic data about
    such activities. There are several reasons, many of which are interrelated, for this situation.

    0
         USAID management has not conclusively decided what information it needs to collect
         about its activities in nonpresence countries. Nor has it decided who should be responsible
         for collecting this information. Many issues related to nonpresence programming are
         controversial, and attempts to reconcile these divergent opinions, so that myriad policy
         statements can be consolidated into a formal chapter in the agency’s automated policy
         system, have failed. Existing policy statements are difficult to locate, incomplete, and,
         occasionally, contradictory. As a result, compliance with USAID policies and procedures
         has been uneven.

    l   Despite instructions to collect information on their activities in nonpresence countries,
         some agency managers, particularly managers of regional/global activities, believe that
         country-specific information is either irrelevant or impossible to collect. They are
         concerned only that the global/regional goals are being met. They do not request
         implementing organizations to collect or provide information on the location or cost of
         individual activities. This issue is not limited to nonpresence country activities, but is a
         much wider issue relating to all USAID-funded activities.

    l    Although the agency created a central database to collect data about nonpresence country
         activities and did request information on an agency-wide basis at least once, the agency
         did not create a system for ensuring that updated information would be collected and made
         available to agency managers on a continuing basis. As a result, the current database is
         not a credible source of information.

    The need for country-specific information, even for regional and global activities, is becoming
    increasingly apparent. Without reliable information on its activities in any given nonpresence
    country, USAID is unable to, among other things:

    l   provide information in a timely manner to decision makers who must consider
         programming strategies and funding alternatives and comply with recent government
         reform legislation requiring USAID to report on its accomplishments as a prelude to future
         budget requests;

    l    ensure that all activities in any given country comprise or support a coherent strategy;

C




                                                     3
l   respond quickly to Congressional and other external requests for data;
0
    ensure that funds are not spent for activities, which because of their location or purpose,
    are prohibited by legislation; and                                                                -
                                                                                                  L
l   provide complete and accurate information for U.S. Embassy performance plans.

Because USAID’s current policies and procedures are inadequate for ensuring that needed
information on nonpresence country activities is collected and made readily available, we         _
make the following recommendations:                                                                   -

    Recommendation No. 1: We recommend that the Bureau for Policy and Program
    Coordination:

    1 1 consolidate and supplement existing statements on management issues related to
     l

                                                                                                      -
        nonpresence programming, and

    12 ensure inclusion of appropriate guidance into the USAID Automated Directives
     l



       System.

    Recommendations No. 2: We recommend that the Bureau for Policy and Program
    Coordination, in collaboration with the Bureau for Management/Office of Budget,
    issue procedures that will result in the periodic collection of basic information on
    activities in nonpresence countries and ensure that the resulting information is readily
    available to USAID managers.

Based on audit work discussed below, we believe that guidance is needed to:                           -
(1) define the types of activities that are considered nonpresence programming; (2) decide
what information on these activities should be collected in a central database; (3) establish
a system for periodically updating the database; (4) clarify procedures for approving
nonpresence country programming; (5) describe conditions or funding levels that trigger the
need for strategic or other consolidated plans for a nonpresence country; (6) clarify how             -
USAIDIWashington managers of nonpresence country activities are expected to comply with
new anti-drug trafficking regulations in the Foreign Assistance Act (Section 487); and (7)
clarify the extent to which managers of activities in nonpresence countries are expected to
ensure that their activities are consistent with, and reflected in, U.S. Embassies’ Mission
Performance Plans.                                                                     .

Need to Coordinate and Formalize Policies

We found that USAID has issued, at various management levels, several policies and
procedures that addressed issues related to nonpresence country programming-including the
need to collect and report country-specific information. The policies were sometimes

                                                4
contradictory and it was unclear which ones were still in effect. Many officials were
confused about which policies and procedures to follow and some did not know about the
policies at all. Not surprisingly, compliance was uneven.

Our 1997 survey report noted that USAID’s Automated Directives System (the agency’s
repository of mandatory and recommended policies and procedures-ADS) included
references to activities in nonpresence countries. However, the references were scattered,
incomplete, and failed to provide a clear vision of the agency’s position on the expansion of
such activities and the criteria and processes for proposing and approving new activities.

The situation has become more confusing as USAID’s Bureaus for Management (M) and
Policy and Program Coordination (PPC) pursue a practice of issuing instructions outside the
ADS to address some of the acknowledged holes in the ADS guidance. In the past four
years, M and PPC have issued more than a dozen memoranda related, in whole or part, to
management of nonpresence programming. These include documents such as:

l    policy statements aimed at limiting nonpresence programming,

l   instructions for preparing detailed discussions of nonpresence country activities for the
      fiscal year 1999 Congressional Presentation,

l    instructions for preparing fiscal year 2000 budget submissions, and

l    instructions for initiating, continuing, and reporting on research activities in nonpresence
     countries.

There are several problems with this decentralized, memorandum-oriented approach to issuing
policy and procedures. Because there is no complete list of such documents, activity
managers are never certain of having the most recent or most relevant statement. Some
documents are also inconsistent with one another. In addition, despite the proliferation of
documents, many issues related to nonpresence programming have not been addressed.

In the absence of centralized procedures, each USAID/Washington bureau has developed its
own practices. For example, the Bureau for Europe and the New Independent States (ENI)
issued guidance for its activities in post-presence ENI countries. This guidance states that
activities will only be funded in post-presence countries when justified in detail and only
under exceptional, well documented conditions.
The Advisory Committee on Voluntary Foreign Aid (ACVFA) described the differing
approaches adopted by USAID’s bureaus in a report released in September 1998.’ Because
ACVFA advocates increased participation of USAID’s partners in planning and implementing
                                                                                                                                                     -
nonpresence programming, it supports policies or practices that encourage flexibility.
However, the ACVFA report also provides support for the position that current guidance,
issued during a period when nonpresence programming was considered the exception rather
than the rule, may no longer be adequate. For example, the report noted that USAID’s
Bureau for Asia and the Near East considered USAID’s nonpresence policies to be irrelevant
to the current environment-three years ago, the bureau was targeting country programs for                                                            -
termination and had activities in only two nonpresence countries. Now it has activities in 11
such countries and more are envisioned.

Some agency guidance has not been enforced and, therefore, has been ignored. For example,
an ADS supplement requires that technical offices provide PPC with semiannual lists of all
research activities approved for nonpresence countries. One manager of research activities
in several nonpresence countries was not aware of this ADS supplement and had never
provided the requested information. (Nor had he provided inform&on on these research
activities to managers of USAID’s database on nonpresence country activities.) The PPC
official responsible for issuing the semiannual reports on approved research said he did not
follow-up or prepare any reports because he believed that a memorandum issued by M after
the ADS supplement effectively negated the supplement.

M and PPC have attempted, during the past two years, to issue a new chapter in the ADS that
covers issues related to approving, monitoring, and reporting on activities in nonpresence
countries. These efforts have been unsuccessful, largely because there is no agency-wide
consensus on issues such as:

l   what constitutes a nonpresence country activity,

l   the need for standardized criteria and procedures for approving nonpresence activities,

l   appropriate planning and accountability standards for nonpresence country activities, or




      1
        “Existing USAID policy, developed several years ago, is applied...with significant variation among, and sometimes within, the
Bureaus. [The Bureau for Latin America and Caribbean] gives great consideration to regional and cross-border concerns. [The Bureau for
Asia and the Near East] responds to a large extent to foreign policy concerns. [The Bureau for Europe and the New Independent States]
has fkom the outset aimed at a transition to non-presence, and has a specifically-defined and systematic approach to decision-making. [The
Bureau for Africa’s] decision-making is governed to a great degree by funding and staff’ng constraints. Fe Bureau for Global Programs,
Field Support and Research] affords greater relative priority to global concerns, while approaches and issues differ within the Bureau itself.
me Bureau for Humanitarian Response’s] programs are, in major part, exciptions to the rule.” ACVFA Report, page 6.                               .   c-




                                                                      6
l   which, if any, USAID office should take the lead in coordinating, planning, and/or
     reporting activities in any specific nonpresence country when more than one management
     unit funds or manages programs there.*

Recognizing that resolution of these issues was unlikely in the near future, M and PPC sought
alternative means of addressing operational issues that exist independently of the difficult
policy decisions. For example, in July 1998, an Agency General Notice identified and
delegated several administrative and procedural responsibilities to M/Budget and PPC. PPC
assumed responsibility for issuing policy statements and maintaining agency files on
nonpresence country activities. M/Budget and PPC shared responsibility for reviewing plans
for post-presence activities and maintaining a database of nonpresence activities.

In September 1998, PPC issued a paper designed to elicit discussions and decisions on criteria
to be used by those considering new nonpresence programming. However, the paper focused
on fundamental issues of prioritizing foreign assistance and allocating staffing resources and
not on operational issues, such as the “who, what, when, and how” of coordinating activities
or collecting budget, financial, and performance data. To ensure that programs in
nonpresence countries, regardless of the rationale for their approval, are adequately identified
and reported on, we believe that PPC should consolidate and supplement existing policies and
procedures relating to the management of nonpresence country activities.

Need to Address Bureau Concerns About
Countrv Data for Regional Activities

Bureaus did not provide, or even develop, country-specific information primarily because of
(1) confusion as to what information was required and how and when such information should
be submitted and (2) reluctance to spend the time and resources need to disaggregate country-
specific data from regional programs. The following illustrates examples of these problems.

l   Managers of some regional activities believed that country-specific data could not be
     collected or was irrelevant in the context of regional programming and, therefore, did not
     collect it. However, we noted that managers appeared to use this justification even when
     their “regional” activity was actually a group of similar bilateral programs managed
     through a regional mechanism for convenience.

l   Some USAID officials said that they were prohibited by Office of Management and
     Budget (OMB) regulations from requiring grantees, which have activities in several
     countries, to report country-specific financial data. Although one USAID bureau has
     already requested and received a waiver from OMB and another bureau plans to ask for
     its own waiver, there has been no effort to request an agencywide waiver, which would
     appear to be more efficient than requesting waivers one bureau at a time.


      2
      During the exit conference for this audit, however, USAID offkials stated that they had recently decided that the regional bureaus
would be responsible for the lead in these areas.

                                                                   7
          In the absence of waivers, procurement officials suggested that, with sufficient planning,
          managers could obtain country-specific information by either writing country-specific
          assistance agreements or by requiring grantees to provide progress reports with country-
          specific details.
      0
          The manager of World Food Program (WFP) activities in the Bureau for Humanitarian
          Response (BHR) did not believe that requests for nonpresence programming data applied
          to WFP activities and, therefore, did not provide any WFP information to the nonpresence
          country database manager. In addition, although subsequent BHR-produced reports
          indicated several nonpresence countries that received (1) small grants dispersed by U.S.
                                                                                                            4




          Ambassadors during national disasters in their host countries, and (2) grants to reimburse
          private voluntary organizations its ocean freight costs in delivering privately donated
          commodities, the database did not contain the majority of this information. Because M
          and PPC have excluded these activities from the special approval requirements for
          nonpresence country activities, we believe that these activities will be overlooked when       C




-.-       identifying and reporting on nonpresence country programs.

      Need System to Collect and Update Data on
      Nonpresence Country Activities

      The lack of country-specific information about activities in nonpresence countries is not a new   -
      problem. Our 1997 survey report noted that senior USAID managers lacked basic
      information on the location, purpose, funding source, and cost of nonpresence country
      activities. As a result, they could not be assured that (1) such programs supported agency
      goals, (2) the results of all activities were monitored and reported, or (3) existing planning
      and monitoring standards were appropriate and cost-effective for all categories of nonpresence
      country activities.                                                                               -


      In response to our survey and because USAID’s new accounting system was not expected to
      collect country-specific data to the extent needed by senior managers, M’s Office of
      Management Planning and Innovation (M/MPI) decided to develop a database to collect and
      store information on nonpresence country activities. However, when USAID’s Washington
      bureaus were asked to provide information to the database manager, the information they           -4
      supplied was not complete, accurate, or comparable. Furthermore, MMPI did not establish
      a system to ensure that bureaus periodically provided updated information. As a result,
      M/MPI’s database never became a reliable or complete source of information on nonpresence
      programming.

      A report based on information in the database illustrates the problem caused by differing
      definitions of nonpresence country programming. In January 1998, M/MPI prepared a report
      for senior USAID managers using information in the database. The report listed activities in
      44 nonpresence countries with funding totalling over $757 million. Of this amount, $120
      million represented BHR activities in 24 countries. In contrast, BHR has prepared its own
                                                                                                        4




                                                     8


                                                                                                        4
reports showing that it had provided assistance in 64 nonpresence countries with funds
totalling over $252 million.3

The database was also inaccurate and out-of-date. For example, the database listed 21
ongoing activities in Costa Rica with funding exceeding $42 million. We found that this list
included duplicate entries and completed activities. We found only 12 ongoing activities
which had an annual cost of about $745,000. Also, the database indicated that USAID had
15 ongoing activities costing approximately $18 million in Burkina Faso. We found a
different mix of 18 activities, coincidentally also costing about $18 million annually.

In July, responsibility for maintaining a database on nonpresence country programming was
formally delegated to M/Budget and PPC. USAID management has decided that the
Agency’s geographic bureaus will be responsible for providing information on all nonpresence
country programming in their regions, including activities undertaken by G and BHR.
Geographic bureau officials agree that they need and should have this information; however,
they do not believe they should be held responsible for providing information that they cannot
obtain without the cooperation of other bureaus. Geographic bureau managers frequently
expressed frustration with what they perceived to be long-standing disregard on the part of
G for the information needs of other USAID operating units. Geographic bureau officials
complained that G does not request their concurrence for planned activities and also neglects
to provide them with information on ongoing activities, even when specifically requested to
do SO. They also noted that this problem is not limited to activities in nonpresence countries
but extends to G activities in presence countries as well.

Country-Specific Information is
Needed for Several Purposes

The subject of nonpresence country programming has surfaced with increasing regularity
during meetings of senior USAID managers. However, managers are handicapped in framing
and prioritizing the issues because available information on the location and scope of such
programs is inaccurate and incomplete and, therefore, may be misleading. Others need
accurate information as well. For example, it is needed to justify USAID’s budget requests,
to ensure that USAID does not fund activities that are prohibited by legislation because of
their location or purpose, and to help ensure that approved activities support USAID and
Department of State objectives and are included in U.S. Embassy country-specific
performance plans.




        ?he 64 nonpresence countries in the BHR report included countries such as Djibouti, North Korea, The Azores, and Dominica which
benefitted from Office of Foreign Disaster Assistance activities, as well as 22 countries which benefitted only from grants under USAID’s
Ocean Freight Reimbursement Program. (Under this program, USAID reimburses private voluntary organizations the costs they incurred
to transport donated commodities, such as medical supplies, agricultural equipment, educational supplies, food, and building equipment, to
developing countries.)

                                                                    9
    Information is Needed to Prepare
    USAID Budeet Presentations

Instructions for the preparation of USAID’s fiscal year 1999 Congressional Presentation,           A




which were issued by the Bureau for Legislative and Public Affairs (LPA), required that
bureaus prepare narratives for all countries receiving $1 million or more of bilateral, regional
and/or central field support. An LPA official told us that LPA holds the geographic bureaus
responsible for determining when the $1 million threshold has been reached-regardless of
the source of or purpose for the funding. However, because of confusion about both the             4



definition of nonpresence country programming and the calculation of country-specific costs
and because they lacked information on G and BHR programs in their regions, the geographic
bureaus did not identify or prepare narratives for all countries meeting LPA’s threshold. This
omission resulted in some anomalies in the fiscal year 1999 Congressional Presentation. For
example, the Congressional Presentation:

l    included a country narrative for Guyana, a presence country with a strategic plan but with
     the relatively small estimated budget of $2,800,000 for fiscal year 1998;

l   did not include a country narrative for Burkina Faso, a nonpresence country without a
     strategic plan but with estimated annual expenditures of about $18 million;
                                                                                                   4
l    did not include a country narrative for Sudan, a nonpresence country without a strategic
     plan but which had received, in fiscal year 1998, food assistance costing about $68 million
     per year to ameliorate long-term “emergency” conditions;

l   included a country narrative for Israel, a nonpresence country with annual funding in
     excess of $1 billion, but the narrative and funding descriptions did not cover all USAID      -
     activities.

Internal guidance for preparing other USAID budget documents also required bureaus to
collect and submit data on nonpresence country programming. For example, guidance for
preparing fiscal year 2000 budget submissions stated the following:

     For non-presence countries M/MPI has developed a database to which all bureaus have
     access and which provides the best estimate to date of non-presence programming.
     Using this database as a starting point, bureaus should provide their best estimate of
     future non-presence programming requirements for FY s[fiscal years] 1999-
     2000....Bureau narratives must also include a separate discussion on non-presence
     programs as appropriate, specifically reporting on results from such programs....BHR
     and G must also identify, by country, where their funds are going together with
     associated OE[operating expense] and/or workforce requirements.

We reviewed fiscal year 2000 budget submissions prepared by the four geographic bureaus
to determine whether the submissions included country-specific information on 25

                                                10
judgmentally selected nonpresence countries. We found that the submissions included
information on only 4 of the 25 selected nonpresence countries. In addition, neither BHR nor
G presented any country-specific information in their budget submissions.

USAID budget officials said they had included the requirement for data on nonpresence
countries in their budget submission guidance because they received frequent requests for
country-specific data from OMB, Congress, and senior USAID managers. However, because
of time constraints and higher priorities, these officials said that they were unable to follow-
up when the information was not submitted.

   Information is Needed to Comply with
   Anti-drug Trafficking Regulations

Although USAID recently issued guidelines to help its managers comply with new anti-drug
trafficking regulations (Section 487 of the Foreign Assistance Act), the guidelines do not
address issues particular to nonpresence programming. As a result, managers of nonpresence
                                                                                      __. -
country activities may not know to comply with this section of the Foreign Assistance Act.

Department of State regulations, effective October 5, 1998, imposed new responsibilities on
agencies intending to provide certain categories of assistance. Specifically, Section 487
requires agencies to take reasonable steps to ensure that assistance under the Act is not
provided to, or through, drug traffickers, persons with narcotics convictions, or persons
reasonably suspected of drug trafficking.

The regulations apply to most participant trainees and to “first-tier” recipient organizations
or individuals receiving or providing more than $100,000 in USAID-funded covered
assistance. However, the procedures apply differently to different categories of recipients.
Prior to obligating funds, operating units must review certain participant trainees and “key
individuals” of recipient entities. In addition, “key individuals” of certain entities and covered
participants must certify that they are not, and have not, been involved in drug trafficking
before assistance is provided. Furthermore, USAID must add special clauses to certain
USAID-financed agreements and contracts. The requirements for review, certifications, and
clauses apply as a routine matter to assistance in “covered” countries. They apply to
assistance in other countries only if there are reasonable grounds to suspect current or past
involvement in drug trafficking or conviction of a narcotics offense.

Several nonpresence countries have been declared “covered” countries: Afghanistan, Burma,
China, Vietnam, Laos, Malaysia, Venezuela, Thailand, and Belize. Because the Act exempts
assistance of less than $100,000, managers of activities in covered and certain other countries
will need accurate, advance, information on the amount of funding that recipients are expected
to spend in a covered country in order to comply with this law. In addition, managers will
need background information on certain key individuals and covered participants. Managers
must refer all required information to a designated U.S. Embassy official for review. The
referral must take place at least 14 days before obligating any funds for the proposed activity.

                                                11
Two problems discussed earlier in this report- lack of readily available information on the
location and cost of nonpresence programming and the lack of a single focal point responsible
for coordinating activities in/for any specific nonpresence country-will make compliance
with these new regulations and guidelines more difficult for managers of activities in             -
nonpresence countries. For example, under current conditions, managers are unlikely to have
the estimated cost data needed to tell whether recipients with regional programs will trigger
thresholds in covered and certain other countries. In addition, although, the guidelines state
that USAID operating units are responsible for obtaining needed information and providing
it to responsible Embassy officials, it is not clear whether Washington bureaus, including G
and BHR, are expected to contact the relevant Embassy officials individually or whether they       4




should submit this information through the geographic bureau’s country desk officer. We
believe additional guidelines are needed to resolve these and other issues specific to
nonpresence country programming.

   Information is Needed to Comply with
   Legislative Restrictions  -. -

USAID also needs information on the location and types of activities funded in nonpresence
countries to ensure that managers do not obligate or spend funds for activities which are
prohibited by legislation or require special waivers or certifications. For example, the Foreign
Assistance Act prohibits assistance to a government that has been in default for more than one     -
calendar year on any foreign assistance loan.

To ensure that managers are aware of all applicable limitations, Chapter 200 of the ADS
advises USAID/Washington Country Desk Officers, in consultation with the Department of
State Country Desk Officer, to prepare annual country-specific checklists. To determine
whether checklists had been prepared for nonpresence countries, we contacted the desk              -
officers for 25 nonpresence countries and asked whether they had prepared checklists in 1998.
We found that they had prepared checklists for only 3 of the 25 nonpresence countries. The
primary reason why desk officers did not prepare checklists was because they believed that
USAID policy did not require a checklist if there was no bilateral agreement between the U.S.
government and the respective country.
                                                                                                   A




We also asked three of the attorneys in the Office of General Counsel whether they had
prepared checklists for nonpresence countries. Only one of those contacted had prepared any
sort of checklist. His office prepared an annual update of sanctions for countries covered by
the geographic bureau to which he was assigned. The other attorneys said that, even though
they had not prepared formal checklists, they kept abreast of legislative restrictions and, if
asked for advice or clearance, they could/would determine whether planned activities were
                                                                                                   A




allowable. However, absent this consultation, there was a general lack of readily available
or definitive information on the legislative restrictions applicable to nonpresence countries.




                                               12
       Information is Needed For
       Department of State Performance Plans

    All U.S. government agencies operating in any particular foreign country are expected to
    participate in the development of the U.S. Embassy’s Mission Performance Plan (MPP).
    According to Department of State guidance, MPPs are expected to “...form a basis for the
    Congressionally mandated annual performance plans of the Department of State and other
    agencies.” USAID has not issued detailed guidance that advises managers of activities in
    nonpresence countries how they should participate in MPP reviews. As a result, there is a
    risk that USAID’s activities will not be (1) linked to the U.S. national interests identified for
    those countries and/or (2) included in the MPPs. For example, our review of 24 MPPs of
    nonpresence countries, prepared by U.S. Embassies in 1998, indicated that the majority of
    USAID-funded activities were not captured in these documents.

    In January 1998, USAID issued guidance for preparing fiscal year 2000 Results Reviews and
    Resource Requests (R4s). The instructions were intended to ensure-. that,
                                                                        -     in any given country,
    resources are concentrated on the highest U.S. priorities.4 They stated that:

       Traditionally, MPPs, prepared by full country teams and incorporating USAID
       programs, have defined U.S. priorities in a given country. It is expected that MPPs will
       continue to play this role and that they will be developed with the full participation of
       all USG agencies at post.... USAID will participate in MPP reviews for countries in
       which it has active programs.... USAID operating units are asked to link their objectives
       to the U.S. national interests [that] the full mission seeks to serve and to identify the
       priority ranking of the U.S. national interests being served by the full country program.

    A draft paper on nonpresence country programming, circulated by PPC in September 1998,
    specifically instructed managers of activities in nonpresence countries to participate in MPP
    reviews.

    The agency’s fiscal year 2001 R4 guidance cable, issued in January 1999, reiterated the need
    for USAID involvement in the preparation of MPPs and assigned responsibilities to PPC and
    USAID’s regional bureaus for ensuring that coordination with the Department of State takes
    place:

        USAID missions are expected to be integral participants in preparing the MPP.. . .
        USAID will be a full participant in MPP reviews for all countries that receive, or
        propose receiving, USAID funding.. . . PPC... is the principal contact point...on MPP/R4
        coordination and will assist in addressing questions that may arise related to guidance.
        Regional bureaus will have the lead in coordinating R4 and MPP reviews with their
        State counterparts.


         4Some managers believed that PPC should clarify the extent to which the R4 can and should be used as the vehicle to request, obtain,
-   and document approval of nonpresence country programming, particularly in view of plans to revise and streamline that document.

                                                                       13
AS discussed earlier in this report, activities in most nonpresence countries are approved
piecemeal, as part of plans and R4s prepared for other countries or regional or global
programs.’ However, these plans and R4s rarely provide country-specific details and,
therefore, cannot be used as the primary source of information on USAID’s activities in any                                                  -
specific nonpresence country. As a result, although the fiscal year 2001 R4 guidance cable
makes USAID’s regional bureaus responsible for coordinating USAID’s participation in the                                                 l




MPP process for all countries in their regions, the cable does not resolve the bureaus’
dilemma that they are not provided and do not have ready access to information on activities
in their regions that are funded and managed by other bureaus, particularly G. Regional
bureau officials repeatedly noted that this problem extends to central bureau activities in
presence countries as well as nonpresence countries.


Management Comments and Our Evaluation
PPC reviewed our draft audit report and agreed with all findings and recommendations.
PPC’s written comments provided additional details on the obstacles USAID faces in
programming and tracking USAID-funded activities in nonpresence countries and they
identified some of the actions being taken to overcome these obstacles. PPC stated that it had
not yet decided on the corrective actions necessary to address the audit recommendations.
Therefore, no management decisions had been made by the date of this report. We agree that
USAID has some significant challenges to conquer before it can reach its goal to identify and
report on its activities in nonpresence countries. We hope that in deciding on the corrective
actions necessary to overcome these obstacles, that USAID will consider the various user
needs for country-specific information and the varying and extremely diverse nature of the
activities themselves.
                                                                                                                                             4
M deferred to PPC and elected not to respond to the draft report. PPC’s response to our draft
audit report is included in Appendix II.




      5
       The Agency’s fiscal year 2001 R4 guidance cable, issued January 1999, notes that the number of USAID-funded activities in
nonpresence countries is creating increased management vulnerability and demands for more country level R4-like reporting and reports.
The guidance also states that three ENI nonpresence country programs already have full R4s prepared every year.

                                                                  14
                                                                           APPENDIX I
                                                                            Page 1 of 2


                              SCOPE AND
                             METHODOLOGY




Scope
                                            -. -
We audited the USAID-funded activities in nonpresence countries to determine if USAID was
able to identify and report on its activities in these countries. Audit work was done in
Washington with the Bureau for Global Programs, Field Support and Research, the Bureau
for Latin America and the Caribbean, the Bureau for Africa, the Bureau for Asia and the Near
East, the Bureau for Europe and the New Independent States, the Bureau for Legislative and
Public Affairs, the Bureau for Humanitarian Response, the Bureau for Policy and Program
Coordination, and the Bureau for Management. Work was also done in Costa Rica and
Burkina Faso with activity implementors and recipients, and Guatemala City, Guatemala with
the USAID office of Guatemala-Central American Programs (G-CAP) and Abidjan, Cote
d’Ivoire with the USAID office of Family Health and Aids in West and Central Africa
(FHAAVCA). All work was done in accordance with generally accepted government auditing
standards during the period February 24, 1998 through January 4, 1999.


Methodology

To accomplish the audit objectives, we reviewed program documents and made site visits to
USAID/G-CAP, FHAANCA, and selected activity sites in Costa Rica and Burkina Faso. We
reviewed the Resource Requests and Results Reports, budget documents, Mission Performance
Plans, USAID’s 1999 Congressional Presentation, progress reports, site visit reports,
implementation documents, audit reports, and other planning, monitoring and reporting
documents.

We interviewed USAID officials in Washington, as well as those in Guatemala and Cote
d’Ivoire. We also interviewed selected Grantee and Contractor personnel in Costa Rica, Cote
d’Ivoire, Guatemala, Burkina Faso and Washington, and selected Department of State officials
in Washington, Costa Rica and Burkina Faso. In Costa Rica and Burkina Faso we also
visited selected activities implemented with USAID funds to determine if, in general, the
activities were ongoing and working towards the purposes planned for and reported on. In
                                                                             APPENDIX I
                                                                              Page 2 of 2
addition, we obtained and reviewed program documentation and analyzed data when
appropriate.

We did not perform the audit work necessary to verify, in any detail, the results of activities
as reported by USAID and/or implementors. From site visits, we were able to get a general
assessment on whether activities were working towards achieving planned goals and whether         4
recipients and/or implementors believed that they would be successful.




                                                                              -. -
                               February 18, 1999


      MEMORANDUM
           -.-
      TO:            Acting AX/A,      Paul Armstrong
                                                   “3 _---x
      FROM:          AA/PPC,     Thomas H.   Fox

      SUBJECT:       Audit of USAID Activities in Nonpresence
                     Countries (Report No. 9-000-99-00x-W.

      Thank you for giving PPC the opportunity to provide
      comments on your audit of VSAID-funded activities occurring
      in countries where USAID does not have a direct hire
      presence ---country programs generally referred to as
      "nonpresence countries .N OIG, and particularly the staff
      who completed this audit, are to be commended for a
      thorough treatment of this complex matter.   Xnsights
      provided in this audit will serve PPC and the entire Agency
      well as we seek to remedy the problems identified by the
      report. We are currently taking a number of steps to move
      us towards an early resolution of the two recommendations
      contained in the report.

      OBSTACLES TO PmING C          TRACKING   USAID-FUNDED ACTIVITIES
      IN NONPRESENCE COUNTRIES

      The background section of the subject audit provides an
      excellent short description of USAID’s development mission
      and lists ten varied types of assistance programs typically
      found in nonpresence countries. This description
      illustrates the complexity of programming and tracking
      activities in countries where we have no US Direct Hire
      Staff. The magnitude, scope and variety of such programs,
      which are often budget earmarks, make them difficult to
      track within the funding constraints currently facing the
      Agency for International Development. While we recognize
      that improvements need to be made in tracking nonpresence
      activities we are hampered by additional obstacles
      previously identified in reports from the Office of the




- .
                                                                                    4




                                                           APPENDIX II
                                                                  Page 2 of 3




                                                              2


Inspector General and the General Accounting Office. such
obstacles often apply to both presence and nonpresence
country situations. A major obstacle is the lack of an
off-the-shelf accounting system which can handle cost-
accounting and program tracking in the complex
international environment in which USAID works. Another is
USAID's traditional heavy focus on "presence" countries
with "on the ground" staff. Several recently enacted
federal regulations also deter USAID from gathering
appropriate data from grantees working in nonpresence
countries. One good example of this is the OMB Paperwork
Reduction Act (44USC 3501), which, in prescribing how form
SF269 is to be Used, effectively prohibits USAID from
seeking detailed country expenditure and program results
data from grantees.

ACTIONS BEING TAKEN To UVERCOME OBSTACLES

To achieve adequate management, programming and tracking of
activities in nonpresence countries PPC and the Management
Bureau are taking a number of steps to address the issues
identified in the subject audit. Actions include:

l Revamping USAID's R4 procedures to pave the way for
greater attention to future nonpresence programs.

l Using the Operation's-Governance Group (and web site) to                      -
coordinate significant redesign and rewriting of portions
of the.ADS which include references to nonpresence
progranuning and tracking.

l Rewriting the ADS 200 series (for which PPC is the
primary author) to fully integrate policy, goals and
operational procedures for nonpresence country programs,
that will result in the periodic collection of basic                            A


information on activities in nonpresence countries.

l Continuing to work with the Management Bureau to
facilitate design and improvement of computer and software
systems to ensure that information about activities and
expenditures in nonpresence countries is readily available
to USAID managers. This effort will be linked with the
cost-accounting systems originating in the GMRA
requirements.                                                                   -
                                                               APPENDIX II
                                                                 Page 3 of 3   ’




     USAXD RESPONSIBILITIES

     PPC will take the lead in closing the recommendations
     included in this audit, with significant input froxu the
     Management Bureau and assistance from other central and
     regional USAID bureaus in Washington. As we agree upon
     management decisions about these recommendations we will
     discuss with the Office of the Inspector General the likely
     time frame for accomplishing the reforms that will be
     necessary to address the important findings of this audit.




C.
